No. 21-194
In the

Supreme Court of the United States
California Trucking Association, et al.,
Petitioners,
v.
Rob Bonta, in his official
capacity as the Attorney General
of the State of California, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit
BRIEF OF OWNER-OPERATOR INDEPENDENT
DRIVERS ASSOCIATION, INC. AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS
Paul D. Cullen, Jr.
Counsel of Record
Charles R. Stinson
The Cullen Law Firm, PLLC
1101 30th Street, NW, Suite 300
Washington, DC 20007
(202) 944-8600
pxc@cullenlaw.com
Counsel for Amicus Curiae
307224

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTEREST OF THE AMICUS CURIAE . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.	Independent owner-operators represent
a cr itical, long-established trucking
business model that Congress sought to
preserve and support.  . . . . . . . . . . . . . . . . . . . . . . 4
A. The owner-operator business model is
an integral step in the creation of safe
and successful small businesses in the
trucking industry . . . . . . . . . . . . . . . . . . . . . . 4
B. W hen Cong ress dereg ulated the
t r uck i ng i ndust r y, it sought t o
preser ve and support the owneroperator business model . . . . . . . . . . . . . . . . 5
II. A B 5 w ill impose oppressive, if not
insurmountable, economic burdens on both
owner-operators and motor carriers . . . . . . . . . . 7

ii
Table of Contents
Page
III. California’s outsized significance on
the national motor car r ier industr y
renders AB 5’s potential elimination of
a major industry segment an issue of
exceptional importance. . . . . . . . . . . . . . . . . . . . . . 8
IV. The Ninth Circuit’s decision demonstrates the
need for this Court to provide a national unified
interpretation of the FAAAA.  . . . . . . . . . . . . . . 11
A. Cong ress passed the FAAAA to
s e c u r e it s de r eg u l at ion of t he
trucking industry . . . . . . . . . . . . . . . . . . . . . 11
B. The circuit courts have split on the
question of whether state rules that
dictate the way motor carriers haul
freight “relate to” carriers’ prices, routes,
or services and are therefore preempted
by the FAAAA . . . . . . . . . . . . . . . . . . . . . . . 14
1.

The Ninth Circuit’s AB decision
departs from its prior balanced
consideration of the FAAAA’s
purpose.  . . . . . . . . . . . . . . . . . . . . . . . . . 14

iii
Table of Contents
Page
2. The Ninth Circuit’s AB 5 decision
conflicts with decisions of the First
and Third Circuits, which consider
state rules that eliminate the use
of independent contractors in
transportation to be preempted by
the FAAAA . . . . . . . . . . . . . . . . . . . . . .  17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Am. Trucking Ass’ns, Inc. v. City of Los Angeles,
559 F.3d 1046 (9th Cir. 2009) . . . . . . . . . . . . . . . . . . 7, 8
Bedoya v. Am. Eagle Express Inc.,
914 F.3d 812 (3d Cir. 2019) . . . . . . . . . . . . . . . . . . 18, 19
Cal. Trucking Ass’n v. Su,
903 F.3d 953 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 16
Californians for Safe & Competitive Dump
Truck Transp. v. Mendonca,
152 F.3d 1184 (9th Cir. 1998) . . . . . . . . . . . . . . . .  15, 16
Dan’s City Used Cars, Inc. v. Pelkey,
569 U.S. 251 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Dilts v. Penske Logistics, LLC,
769 F.3d 637 (9th Cir. 2014) . . . . . . . . . . . . . . . . .  15, 16
Louisville & Nashville R. Co. v. Maxwell,
237 U.S. 94 (1915)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Maislin Indus., U.S., Inc. v. Primary Steel, Inc.,
497 U.S. 116 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Owner-Operator Indep. Drivers Ass’n, Inc. v.
New Prime, Inc.,
192 F.3d 778 (8th Cir. 1999) . . . . . . . . . . . . . . . . . . . . . 6

v
Cited Authorities
Page
Schaffer Transp. Co. v. United States,
355 U.S. 83 (1957) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Schwann v. FedEx Ground Package Sys.,
813 F.3d 429 (1st Cir. 2016) . . . . . . . . . . . . . . . 17, 18, 19
Statutes & Regulations
49 U.S.C. § 14102 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
49 U.S.C. § 14501(c)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
49 U.S.C. § 14704  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Federal Aviation Administration Authorization
A c t o f 1 9 9 4 , P u b . L . No . 10 3 - 3 0 5 ,
108 Stat. 1569 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ICC Termination Act of 1995, Pub. L. No. 104-88,
109 Stat. 803 (1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Motor Carrier Act of 1980, Pub. L. No. 96-296,
94 Stat. 793 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
49 C.F.R. Part 376 et seq. . . . . . . . . . . . . . . . . . . . . . . . . . . 6
H.R. Conf. Rep. 103-677 (1994) . . . . . . . . . . . . . . . . . . . . 13
Lease & Interchange of Vehicles, 43 Fed.
	Reg. 29,812, 29,812 (July 11, 1978)  . . . . . . . . . . . . . . . 6

vi
Cited Authorities
Page
Technical Amendments to Former Interstate
Commerce Comm ission Reg ulations in
Accordance with the ICC Termination Act
of 1995 62 Fed. Reg. 15,417 (Apr. 1, 1997)  . . . . . . . . . 6
Cal. Lab. Code § 2775 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Massachusetts Independent Contractor Statute
Mass. Gen. Laws ch. 149, § 148B(a) . . . . . . . . . . . . . .  17
N.J. Stat. 43:21-19(i)(6)(B) . . . . . . . . . . . . . . . . . . . . . . . . 19
Other Authorities
California Bureau of Transp. Statistics: California,
U.S. Dep’t of Transp., https://w w w.bts.
gov/archive/publications/commodity _f low_
survey/2012/state_summaries/state_tables/ca . . . . 10
Draft California Freight Mobility Plan 2020,
California Department of Transportation,
ht t p s : //d o t . c a . g o v/- / m e d i a /d o t - m e d i a /
prog rams/transpor tation-planning /
documents /f reight - cf mp -2 019 - d ra f t /0 0 cfmpdraftchapter17final.pdf  . . . . . . . . . . . . . . . . . 9, 10
Ec onom ic s & I ndu st r y Dat a , A me r ic a n
Trucking Ass’ns, https://www.trucking.org/
economics-and-industry-data  . . . . . . . . . . . . . . . . . . . 5

vii
Cited Authorities
Page
Industr y/O w ner- Operator Facts, OOIDA .
com, https://www.ooida.com/MediaCenter/
trucking-facts.asp . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Regional Data, Annual Gross Domestic Product
(GDP) By State, SAGDP2N Gross Domestic
Product by State (Percent of U.S.), Bureau of
Economic Analysis, https://apps.bea.gov/itable/
iTable.cfm?ReqID=70&step=1#panel-1 . . . . . . . . . . 9
U.S. Container Port Congestion & Related
Int er nat iona l Supply Cha i n Issues:
Cau s e s , Con s e quenc e s & Ch a l leng e s ,
Federal Maritime Commission Bureau of
Trade Analysis (July 2015), https://w w w.
f m c . g o v/ w p - c o n t e n t / u p l o a d s / 2 019 / 0 4 /
	PortForumReport_FINALwebAll.pdf  . . . . . . . . . 9-10

1
INTEREST OF THE AMICUS CURIAE1
The Owner-Operator Independent Drivers Association
(“OOIDA”) is the largest international trade association
representing the interests of the truck drivers whose
classification is at issue in this litigation: independent
owner-operators, small business motor carriers, and
professional truck drivers. OOIDA’s more than 150,000
members are professional drivers and small businessmen
and women located in all 50 states and Canada who
collectively own and operate more than 200,000 individual
heavy-duty trucks. Single-truck motor carriers represent
nearly half of the active motor carriers operating in the
United States. OOIDA actively promotes the views of
professional drivers and small business truckers through
its interaction with state and federal government agencies,
legislatures, courts, other trade associations, and private
businesses to advance an equitable and safe environment
for commercial drivers. OOIDA’s mission includes the
promotion and protection of the interests of independent
truckers, whether they are owner-operators, smallbusiness motor carriers, or professional truck drivers, on
any issue that might touch on their economic well-being,
their working conditions, or the safe operation of their
motor vehicles on the nation’s highways.
1. Counsel of record for Petitioner and Respondents were
provided proper notice under Supreme Court Rule 37.2(a) and have
provided written consent to the filing of this brief. No counsel for a
party authored this brief in whole or in part, and no such counsel
made a monetary contribution intended to fund the preparation
or submission of this brief. No person other than amicus curiae,
its members, or its counsel made a monetary contribution to its
preparation or submission.

2
In addition to its affirmative, strategic litigation,
OOIDA routinely participates as amicus curiae before
federal Circuit Courts of Appeals and the United States
Supreme Court to advocate for the lawful classification of
drivers, the right to pursue independent owner-operator
and smallbusiness motor carrier opportunities, the right
to freely participate in interstate commerce, and the
ability to enforce truckers’ rights in court.
AB 5 establishes a three-part test, each part of
which must be satisfied to overcome a presumption that
the worker is an employee. Cal. Lab. Code § 2775 (b)(1)
(A)-(C). Section 2775(b)(1)(B), “Prong B” of the ABC test,
requiring a finding that “[t]he person performs work that
is outside the usual course of the hiring entity’s business,”
precludes a finding that a truck driver is an independent
contractor because both independent owner-operators
and motor carriers are in the business of transporting
freight. This law threatens to abolish, therefore, the
business model relied upon by OOIDA members for their
livelihoods.
Earlier in this action, OOIDA filed two amicus briefs in
the Ninth Circuit 2 and a motion to intervene pending the
remand of this case to the district court. 3 In an unrelated
2. Brief Amicus Curiae by the Owner-Operator Independent
Drivers Association, Inc. in Support of California Trucking
Association and Affirmance (9th Cir. Dkt. 54 May 13, 2020); Brief
of the Owner-Operator Independent Drivers Association, Inc. as
Amicus Curiae in Support of Plaintiffs-Appellees’ Petition for
Rehearing En Banc (9th Cir. Dkt. 106 June 7, 2021) (“OOIDA
Rehearing Amicus Brief”)
3. Notice of Motion and Motion for Leave to Intervene (S.D.
Cal. Dkt. 122 Apr. 19, 2021) and Memorandum of Points and

3
matter but concurrent with the filing of this brief, OOIDA
and several of its members have filed a petition for
certiorari in a dormant Commerce Clause challenge to
the 35% increase in truck tolls on the Indiana Toll Road.
SUMMARY OF THE ARGUMENT
Owner-operator independent contractor truck drivers
have been a significant part of the trucking industry
for decades. When Congress deregulated the trucking
industry, it preserved and strengthened the rules to
ensure the continuance and strength of this business
model. Because of the size of California’s economy,
businesses from across the country rely upon trucks
to haul freight in, out, and through California. Thus, a
significant portion of the country’s trucking industry
operates on California roads, at least occasionally, and
may be required to comply with AB 5’s mandate to use
employee drivers. This requirement would cause motor
carriers and owner-operators to bear the substantial, if
not insurmountable, costs and burdens associated with
shifting to an employer/employee business model.
In the Federal Aviation Administration Authorization
Act, Pub. L. No. 103-305, 108 Stat. 1569 (1994) (“FAAAA”),
Congress preempted states from engaging in the type of
regulations it had just repealed on the federal level. As
demonstrated by the Ninth Circuit below, however, that
statute has been interpreted inconsistently. The Court
should grant the Petition for Certiorari to provide national
uniformity to court interpretations of the FAAAA and
Authorities in Support of Motion for Leave to Intervene (S.D. Cal.
Dkt. 122-1 Apr. 19, 2021).

4
conclude that AB 5 is the type of state regulation that
Congress intended to preempt.
ARGUMENT
I.

Independent owner-operators represent a critical,
long-established trucking business model that
Congress sought to preserve and support.

Motor carriers and independent owner-operators have
relied upon the independent contractor model for decades
for their mutual benefit. The owner-operator experience
is an important step in the professional development of
individuals in the trucking industry. Even when Congress
abolished the economic regulation of the trucking industry, it
recognized and sought to preserve the relationship between
independent truck drivers and motor carriers. To the extent
that AB 5 is read to eliminate the owner-operator/motor
carrier relationship, it undermines Congress’s efforts to
promote competition in the trucking industry.
A.

The owner-operator business model is an
integral step in the creation of safe and
successful small businesses in the trucking
industry.

The owner-operator business model often functions
as the training ground for safe and successful small
businesses in the trucking industry, including motor
carriers. See OOIDA Rehearing Amicus Brief at 5-6
(citing Declaration of Todd Spencer in Support of Motion
to Intervene (S.D. Cal. Dkt. 122-3) ¶¶ 13, 31). Most truck
drivers begin their careers as employee drivers. Id.
After obtaining employee experience in the trucking
industry, many drivers decide to become independent

5
owner-operators, which involves purchasing their own
truck and equipment. Id. Even though these independent
owner-operators contract to work for motor carriers,
they remain responsible for maintaining and insuring
their trucks, complying with many safety requirements,
and for ensuring their business is profitable. Id. Owneroperators who master these responsibilities may then gain
the experience and knowledge to take on even greater
responsibilities, both financial and regulatory, to become
motor carriers with their own federal interstate operating
authority. See id. Many motor carriers operating today
were founded by individuals who first gained significant
trucking experience and success as independent owneroperators. Id. The independent owner-operator model is
one of the few professional pathways for the creation of safe
and financially stable motor carriers. Id. Small business
motor carriers with 20 or fewer trucks make up more than
97% of all motor carriers.4 The independent contractor
business model is, therefore, crucial to the functioning and
the success of a safe motor carrier industry. AB 5 would
fundamentally alter the trucking industry if it were to
eliminate the businesses of independent owner-operators.
B. When Congress deregulated the trucking
industry, it sought to preserve and support the
owner-operator business model.
As a long-standing business model of the trucking
industry, the owner-operator/motor carrier relationship
4. Economics & Industry Data, American Trucking Ass’ns,
https://www.trucking.org/economics-and-industry-data (last visited
on September 7, 2021); Industry/Owner-Operator Facts, OOIDA.
com, https://www.ooida.com/MediaCenter/trucking-facts.asp (last
visited on September 7, 2021) (carriers with 1-19 power units make
up 95% of total).

6
is recognized and supported by federal law. A federal
statute specifically provides for the regulation of motor
carriers’ use of trucking equipment not owned by them
(equipment typically owned by independent owneroperators). See 49 U.S.C. § 14102. The federal “Truthin-Leasing” rules regulate the contracts by which motor
carriers lease trucking equipment from independent
owner-operators. See 49 C.F.R. Part 376 et seq. These
regulations were proposed by the Interstate Commerce
Commission “to promote the stability and economic
welfare of the independent trucker segment of the motor
carrier industry.” See Lease & Interchange of Vehicles,
43 Fed. Reg. 29,812, 29,812 (July 11, 1978).
When Congress deregulated the trucking industry
(and then enacted the FAAAA to preempt comparable
state regulation), it preserved the former ICC’s Truth-inLeasing rules and transferred responsibility for them to the
Department of Transportation. See ICC Termination Act
of 1995, Pub. L. 104-88, § 204, 109 Stat. 803 (1995); see also
Technical Amendments to Former Interstate Commerce
Commission Regulations in Accordance with the ICC
Termination Act of 1995, 62 Fed. Reg. 15,417, 15,419 (Apr.
1, 1997). Congress also affirmatively gave owner-operators
a right to enforce those rules in federal court. See 49 U.S.C.
§ 14704; Owner-Operator Indep. Drivers Ass’n, Inc. v. New
Prime, Inc., 192 F.3d 778, 785 (8th Cir. 1999). These laws
are intended, in part, to preserve and foster the owneroperator/motor carrier business model within the trucking
industry. AB 5 subverts those objectives.

7
II. AB 5 will impose oppressive, if not insurmountable,
economic burdens on both owner-operators and
motor carriers.
Prohibiting carriers from using owner-operators
would, apart from imposing potentially insurmountable
costs, “disrupt and change the whole nature of [carriers’]
business.” Am. Trucking Ass’ns, Inc. v. City of Los
Angeles, 559 F.3d 1046, 1058 (9th Cir. 2009) (“ATA”) (“As
to smaller companies that cannot afford the vast increase
in capital requirements for the purchase of equipment
and personnel expenditures needed to turn independent
contractors into employees, the result would likely be
fatal.”); see also Appellees’ Answering Brief at 22-24 (9th
Cir. Dkt. 39 May 6, 2020). These costs are far-ranging and
substantial. Motor carriers who previously hauled freight
using independent owner-operators will be required
to: hire staff to manage HR issues (or spend time off
the road learning payroll, insurance, and management
skills); employ tax and/or payroll professionals to ensure
compliance; acquire equipment to keep their employees on
the road; and assume responsibility for the maintenance
of that equipment.
The Ninth Circuit’s interpretation of AB 5’s Prong
B (and other states’ counterparts) would force current
independent owner-operators who now haul freight to
California to give up their self-determined profession
and cede control of their business choices and work to
their motor carrier employers. They may be required
to sell their own, often-personalized, equipment and use
the company’s equipment. Moreover, their leases and
other contracts entered into in reliance upon the federal
truth-in-leasing regulations would be voided, leading to

8
additional financial losses, litigation, and loss of their
businesses.
These impacts extend well beyond the relatively
confined effects of the requirements at issue in ATA.
There, only Port of Los Angeles operations were affected.
AB 5 does not exempt any motor carrier operating in
California with respect to carriers’ residency, the extent
of a company’s operations in California, or the nature of
a particular freight movement. Any trucking company in
the country transporting property into, out of, or through
California must cease using owner-operators to provide
that service. The only alternative would be for motor
carriers and employee drivers to stop hauling freight in
service of the enormous California market or for such
drivers to simply cease driving a truck. Cf. ATA, 559
F.3d at 1057-58. The current injunction to California’s
enforcement of AB 5 in the trucking industry has saved a
significant number of businesses based within and outside
California from likely irreparable harm.
III. California’s outsized significance on the national
motor carrier industry renders AB 5’s potential
elimination of a major industry segment an issue
of exceptional importance.
The size of California’s economy and its demand for
trucking services dwarf those of the other forty-nine
states. A large segment of interstate commerce flows
to, from, and through California. Thus, when California
imposes a rule on trucks operating in California, that
rule applies to tens of thousands of owner-operator
truck drivers who reside outside of the state. California
is a leading consumer and producer of agricultural and

9
manufacturing products, and significant portions of the
country’s imports and exports pass through California
seaports. 5 However one chooses to measure economic
significance, California’s predominance shows:
• 15% of United States gross domestic product 6;
• 23% of United States agriculture production7;
• 15% of United States manufacturing8;
• 40%-50% of United States import container
trade9;
• 2 busiest ports in North America10;
5. Draft California Freight Mobility Plan 2020, California
Department of Transportation, at 4.B.-5–12, available at https://
dot.ca.gov/-/media/dot-media/programs/transportation-planning/
documents/freight-cfmp-2019-draft/00-cfmpdraftchapter17final.
pdf.
6. Regional Data, Annual Gross Domestic Product (GDP)
by State, SAGDP2N Gross Domestic Product by State (Percent
of U.S.), Bureau of Economic Analysis, available at https://apps.
bea.gov/itable/iTable.cfm?ReqID=70&step=1#panel-1.
7. Id.; see also SER143-44 (Husing Decl.).
8. Id.
9. Draft California Freight Mobility Plan 2020, supra note
5, at 2.-4–5.
10. U.S. Container Port Congestion & Related International
Supply Chain Issues: Causes, Consequences & Challenges at
1, Federal Maritime Commission Bureau of Trade Analysis
(July 2015), available at https://w w w.fmc.gov/wp-content/

10
• $382 billion worth of goods (178 million tons)
imported from other states and $506 billion (90
million tons) exported to other states11;
• $179 billion worth of goods (37 million tons)
imported internationally through California to
the other 49 states12;
• Trucks moved 82% (by weight) of all shipments
originating in California13;
• Trucks carried 12 million tons of goods through
California for the international market;
• T r ucks car r ied 78 8 million tons of goods
intrastate.14

uploads/2019/04/PortForumReport_FINALwebAll.pdf; see
also SER144-45 (Husing Decl.) (explaining that the ports of Los
Angeles and Long Beach handled 35.9% of all U.S. imported
containerized cargo in 2017).
11. Draft California Freight Mobility Plan 2020, supra note
5, at 4.B.-8–10.
12. Id. at 4.B.-33.
13. California, Bureau of Transp. Statistics, U.S. Dep’t of
Transp., available at https://www.bts.gov/archive/publications/
commodity _flow_survey/2012/state_summaries/state_tables/
ca (last visit on June 6, 2021); see also SER143 (Husing Decl.)
(explaining that California leads the nation in total value of all
commodities exported by truck).
14. Draft California Freight Mobility Plan 2020, supra note
5, at 4.B.-14.

11
Because many motor carriers across the United
States rely upon cargo going to and from California, and
because AB 5 is not constrained to apply to drivers or
motor carriers based in California or who have a minimum
level of contact with California, AB 5’s enforcement will
have far-reaching and immediate negative consequences
on a large part of the country’s economy. Accordingly, the
potential impact of AB 5 to eliminate a major segment of
the trucking industry within and beyond California is an
issue of exceptional importance.
IV. The Ninth Circuit’s decision demonstrates the
need for this Court to provide a national unified
interpretation of the FAAAA.
The FAAAA’s preemption language has lent itself
to varied judicial interpretations. Courts have failed
to consistently recognize the context of Congress’s
enactment of the FAAAA, including the historical
economic regulation of the trucking industry and
Congress’s original intent to deregulate the industry to
promote competition. This inconsistency calls for this
Court’s resolution.
A.

Congress passed the FAAAA to secure its
deregulation of the trucking industry.

Congress included the FAAAA’s preemption provision
to preserve its efforts to repeal the economic regulation
of the trucking industry with legislation enacted between
1980 to 1995. Before that time, the Interstate Commerce
Commission regulated motor carriers, treating trucking
like a public utility, with a level of government control
that would seem unfathomable today. Motor carriers

12
were required to seek approval of their specific services
(the transportation of a specific commodity) over specific
routes (the origin and destination of that service). Seeking
this approval, the motor carrier had to demonstrate that
the proposed service would serve the public necessity.
See, e.g., Schaffer Transp. Co. v. United States, 355 U.S.
83, 85 (1957) (reviewing the ICC’s decision, under Section
207(a) of the Motor Carrier Act of 1935, as amended by
the Transportation Act of 1940, upon a motor carrier’s
application to expand its existing authority to haul
“granite from Grant County, South Dakota, to points in
15 States”).
Motor carriers were also required to file, for ICC
approval, tariffs setting the rates (prices) they would
charge the public for providing that approved service.
The ICC was responsible for ensuring that a carrier’s
rates were both reasonable and nondiscriminatory. See,
e.g., Maislin Indus., U.S., Inc. v. Primary Steel, Inc., 497
U.S. 116, 119, (1990). Deviation “from the filed rate [could]
result in the imposition of civil or criminal sanctions on
the carrier or shipper.” Id. at 120. Rates had the force
and effect of law under the Filed Rate Doctrine. Id. at
127 (citing Louisville & Nashville R. Co. v. Maxwell, 237
U.S. 94, 97 (1915)).
Congress began to pull back the scope of the ICC’s
economic regulation by passing a series of laws beginning
with the Motor Carrier Act of 1980. Pub. L. 96-296, 94
Stat. 793 (July 1, 1980). Fifteen years later in 1995, a year
before Congress terminated the ICC, it observed that
some 26 states were still requiring motor carriers to file
and seek a state agency’s approval of its rates, routes, and
services under various regulatory structures. Congress

13
saw this state regulation as an obstacle to its goal of
eliminating the economic regulation of the motor carrier
industry nationwide and believed preemption legislation
was both in the public interest as well as necessary to
facilitate interstate commerce. H.R. Conf. Rep. No. 103677, at 86 (1994), reprinted in 1994 U.S.C.C.A.N. 1715,
1758. In response, Congress tacked on a section to the
FAAAA preempting state regulation of motor carrier
prices, routes, and services:
[A] State, political subdivision of a State, or
political authority of 2 or more States may not
enact or enforce a law, regulation, or other
provision having the force and effect of law
related to a price, route, or service of any motor
carrier . . . with respect to the transportation
of property.
Pub. L. No. 103-305, § 601; 49 U.S.C. § 14501(c)(1).
Congress enacted the FAAAA preemption provision,
therefore, to address the specific problem presented by
state attempts to re-impose ICC-like economic regulation
on the motor carrier industry.
In passing this preemption provision, Congress
did not choose the terms “price, route, or service” in a
vacuum. These terms were established by federal statute
and ICC regulations and interpreted by decades of ICC
administrative and federal court decisions. The only
change Congress made to those terms was to substitute
“price” for “rate” without any intended change in meaning.
See H.R. Conf. Rep. 103-677 at 83, reprinted in 1994
U.S.C.C.A.N. 1715, 1755 (explaining that the use of “price”
rather than “rate” was not intended to legislate a new or

14
different meaning or to depart from the prevailing judicial
interpretation).
Courts should interpret the FAAAA preemption
provision in mind the context of both the prior statutory
and regulatory setting that informs the terms used and
Congress’ intent to preserve and promote the owneroperator/motor carrier business model and to promote
competition in the trucking industry. AB 5 contravenes
these goals.
B. The circuit courts have split on the question of
whether state rules that dictate the way motor
carriers haul freight “relate to” carriers’
prices, routes, or services and are therefore
preempted by the FAAAA.
When the Ninth Circuit decided that the FAAAA does
not preempt AB 5, it split with the First and Third Circuits
and countered its own previous decisions balancing
states’ authority to protect workers against Congress’s
deregulatory aims.
1.

The Ninth Circuit’s AB decision departs
from its prior balanced consideration of
the FAAAA’s purpose.

The difference between the Ninth Circuit’s AB 5
decision and its prior FAAAA decisions demonstrate the
inconsistency of the lower courts’ FAAAA interpretations.
Before upholding AB 5, the Ninth Circuit had staked out
a refined position on the scope of FAAAA preemption
that balanced a state’s authority to exercise its police
powers in protecting workers’ rights with Congress’s goal

15
of deregulating the motor carrier industry. The limiting
principles that court adopted in Californians for Safe &
Competitive Dump Truck Transp. v. Mendonca, 152 F.3d
1184 (9th Cir. 1998), and Dilts v. Penske Logistics, LLC,
769 F.3d 637 (9th Cir. 2014), reflect the original purpose
of the FAAAA and the appropriate balance between
federal and state regulatory authority of the motor carrier
industry. That balance enables states, as demonstrated
in Mendonca and Dilts, to enact reasonable regulations
but prevents them from regulating the industry against
Congress’s deregulatory wishes, as in AB 5.
In Mendonca, the Ninth Circuit examined the
meaning of the FAAAA’s “related to” statutory language
when evaluating California’s prevailing wage laws and
found that the wage laws that merely increased costs for
carriers were not preempted. 152 F.3d at 1185, 1189. The
increased costs and other effects of the prevailing wage
requirements relation to prices, routes, and services were
“no more than indirect, remote, and tenuous.” Id. at 1189.
The law did not “frustrate[] the purpose of deregulation
by acutely interfering with the forces of competition.” Id.
Similarly, the meal and rest break requirements at issue
in Dilts increased the costs of providing carrier services, a
tenuous connection that did not “relate to” prices, routes,
or services under the FAAAA as in Mendonca. 769 F.3d
at 648-49. Thus, the FAAAA does not preempt wage and
break requirements but does preempt a state dictating
the business model in which carriers provide their service,
undoing companies’ market-based choices. See id.; ATA,
559 F.3d at 1056.
The Ninth Circuit’s AB 5 opinion, however, upends
this balance and permits California to wholly eliminate

16
the business model used by a significant segment of the
trucking industry. Comparing AB 5 to the rules at issue
in Mendonca and Dilts demonstrates that the FAAAA
preempts AB 5 without disrupting states’ ability to protect
workers’ rights through exercise of their police powers.
While the prevailing wage rules and break requirements
merely increased carriers’ costs, AB 5 fundamentally
changes carriers’ market-driven business model, “acutely
interfering with the forces of competition.” Thus, even if
AB 5 relates to prices, routes, and services indirectly—
e.g., Cal. Trucking Ass’n v. Su, 903 F.3d 953, 960 (9th Cir.
2018) (quoting Dan’s City Used Cars, Inc. v. Pelkey, 569
U.S. 251, 260 (2013))—it eliminates an entire category of
truck driving opportunities for small-business-minded
individuals, as well as the motor carriers who rely upon
independent owner-operators to do business. This result
subverts Congress’s intent to allow the market to dictate
how motor carriers provide trucking services, to preserve
and strengthen the independent owner-operator driver
business model, and to preempt such pervasive state
regulation.
The FAAAA’s legislative history demonstrates that
Congress never intended the FAAAA to serve as a sword
against all exercises of state regulatory authority. This
history supports a narrow interpretation of FAAAA
preemption that leaves room for reasonable regulations
to address working conditions within the motor carrier
industry. California could have taken a different approach
to address worker misclassification without running
afoul of FAAAA preemption. But unlike similar efforts
to improve trucker working conditions, such as the laws
at issue in Mendonca and Dilts, AB 5 goes too far by
threatening the wholesale delegitimization of otherwise

17
legitimate, successful owner-operator/motor carrier
relationships.
2.

The Ninth Circuit’s AB 5 decision conflicts
with decisions of the First and Third
Circuits, which consider state rules
that eliminate the use of independent
contractors in transportation to be
preempted by the FAAAA.

The Ninth Circuit’s AB 5 decision represents another
entry in the circuit courts’ divergent approach to dealing
with the states’ attempts to dictate employment structures
in the transportation sector. First, in 2016, the First
Circuit in decided that the FAAAA preempted a state
rule effectively identical to AB 5. See Schwann v. FedEx
Ground Package Sys., 813 F.3d 429, 438-39 (1st Cir. 2016).
In Schwann, persons who completed “last mile”
deliveries for FedEx as independent contractors
complained that they should have been treated as
employees—and receive corresponding worker benefits—
pursuant to the Massachusetts Independent Contractor
Statute, Mass. Gen. Laws ch. 149, § 148B(a).15 Id. at
15. The Massachusetts rule shares operative language with
AB 5:
For the purpose of this chapter and chapter 151,
an individual performing any service, except as
authorized under this chapter, shall be considered
to be an employee under those chapters unless:-(1) the individual is free from control and direction in
connection with the performance of the service, both
under his contract for the performance of service
and in fact; and

18
432-33. The First Circuit noted that the “usual course
of business” prong of the Massachusetts law “makes any
person who performs a service within the usual course
of the enterprise’s business an employee,” in contrast to
other labor regimes that treat this as one factor of many to
be considered. Id. at 438. This framework “runs counter to
Congress’s purpose” in deregulating—and prohibiting the
states’ regulation of—interstate transportation because
the “decision whether to provide a service directly,
with one’s own employee, or to procure the services of
an independent contractor is a significant decision in
designing and running a business.” Id.
Then, in Bedoya, the Third Circuit reviewed New
Jersey’s different approach to regulating the labor market.
Bedoya v. Am. Eagle Express Inc., 914 F.3d 812 (3d Cir.
2019), cert. denied, 140 S. Ct. 102 (2019). In Bedoya, as
in Schwann, delivery drivers sued their employer for
misclassification, arguing that the state classification
rule entitled them to employee status and benefits. 914
F.3d at 815-16. The defendant argued that the FAAAA
preempted the classification rule and plaintiffs’ claims. Id.
Distinguishing Schwann, the Third Circuit determined
that the FAAAA did not preempt New Jersey’s rule. Id.
at 824. Crucially, New Jersey’s rule contained a caveat
to its “course of business” prong, providing a path to
independent contractor status where the worker’s service
(2) the service is performed outside the usual course
of the business of the employer; and,
(3) the individual is customarily engaged in an
independently established trade, occupation,
profession or business of the same nature as that
involved in the service performed.

19
“is performed outside of all the places of business of the
enterprise for which such service is performed.” N.J. Stat.
43:21-19(i)(6)(B). This different meant that the New Jersey
“test does not bind [the employer] to a particular method
of providing services and thus it is unlike the preempted
Massachusetts law at issue in Schwann.” Bedoya, 914 F.3d
at 824 (citing Schwann, 813 F.3d at 429).
Thus, the First and Third Circuits consider the
FAAAA to preempt state rules that bind motor carriers to
a particular model of providing their services. The Ninth
Circuit held the opposite: the FAAAA does not preempt
AB 5 despite its effective prohibition of independent
contractors.
CONCLUSION
This issue of worker misclassification has become
the recent focus of many state legislatures. While there
are instances where the distinction between employees
and independent contractors needs to be reestablished
for the correct treatment of workers, this problem
should not be solved by state legislation that potentially
eliminates a trucking business model crucial to the
motor carrier industry and recognized and preserved
by Congress. In deregulating the trucking industry,
Congress abandoned one of the most comprehensive areas
of government regulation and sought to foster a more
competitive trucking environment. Through FAAAA
preemption, it sought to ensure that states do not frustrate
those goals by re-regulating in areas that the federal
government purposefully left to the market. California’s
AB 5, however, by seeking to fundamentally restructure
business relationships in the trucking industry, falls

20
squarely within the FAAAA’s scope. OOIDA urges the
Court to grant the Petition for Certiorari and settle this
issue before the trucking industry must bear the burden of
restructuring its workforce across the country to comply
with California’s labor policy choices.
			Respectfully submitted,
Paul D. Cullen, Jr.
Counsel of Record
Charles R. Stinson
The Cullen Law Firm, PLLC
1101 30th Street, NW, Suite 300
Washington, DC 20007
(202) 944-8600
pxc@cullenlaw.com
Counsel for Amicus Curiae

